IN THE SUPREME COURT OF THE UNITED STATES

No. 19-1246

RITA MCDANIEL, INDIVIDUALLY AND AS PERSONAL REPRESENTATIVE OF
THE ESTATE OF JOHNNY F. MCDANIEL, DECEASED, PETITIONER

Vv.

UPSHER-SMITH LABORATORIES, INC., RESPONDENT

CERTIFICATE OF COMPLIANCE WITH WORD-COUNT LIMITATIONS

I, CARY SILVERMAN, counsel for respondent Upsher-Smith Laboratories,
LLC, and a member of the Bar of this Court, certify that the Brief in Opposition for
respondent in the above-captioned case contains 3,873 words, excluding the parts of

the brief that are exempted by Rule 33.1(d).

CA \VERNAN

JUNE 22, 2020
